        Review of the Quality of Data 

         Submitted by Department of 

       Homeland Security Recipients of 

           American Recovery and 

       Reinvestment Act of 2009 Funds


                             OFFICIAL
                             USE ONL L
                             USE ONLY


                             SE ONL




OIG-11-15                         November 2010
                                                            Office of Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                     November 19, 2010

MEMORANDUM FOR:               The Honorable Brian De Vallance
                              Counselor to the Secretary
                              Department of Homeland Security


FROM:                        Richard L. Skinner
                             Inspector General

SUBJECT:                     Review of the Quality of Data Submitted by Department of
                             Homeland Security Recipients of American Recovery and
                             Reinvestment Act of 2009 Funds

Attached for your information is our final letter report: Review of the Quality of Data
Submitted by Department of Homeland Security Recipients of American Recovery and
Reinvestment Act of 2009 Funds. Since the report contains no recommendations to
departmental management, we did not solicit formal comments.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. Also, we will
post the report on our website for public dissemination.

Should you have any questions, please call me, or your staff may contact Ms. Anne L.
Richards, Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
Background
The American Recovery and Reinvestment Act of 2009 (Recovery Act) made available to
federal agencies approximately $787 billion for preserving and stimulating economic
growth in the United States. The Act also created the Recovery Accountability and
Transparency Board (Recovery Board) to “coordinate and conduct oversight of covered
[Recovery Act] funds to prevent fraud, waste, and abuse.”

DHS Recovery Act Funding

The Department of Homeland Security (DHS) received Recovery Act funds of $2.75
billion for the following activities:

                             AMOUNT
                                 (in
    COMPONENT                 millions)             ACTIVITY
Transportation Security        $1,000      Procurement and installation of baggage and
Administration (TSA)                       passenger explosive detection systems at selected
                                           airports

U.S. Customs and Border          $680      Construction/renovation of land ports of entry,
Protection (CBP)                           purchase of non-intrusive inspection systems,
                                           development and deployment of the Secure
                                           Border Initiative Program, and the upgrade of
                                           tactical communications

Federal Emergency                $610      Grants for Emergency Food and Shelter National
Management Agency                          Board Program, Public Transportation and
(FEMA)                                     Railroad Security Assistance, Port Security, and
                                           Assistance to Firefighters for the
                                           construction/renovation of non-federal fire
                                           stations

U.S. Coast Guard (USCG)          $240      Alteration of bridges, improvements to shore
                                           facilities, and repairs to vessels

Office of the Under              $200      Continued development of the DHS consolidated
Secretary for Management                   headquarters
(USM)

U.S. Immigration and              $20      Upgrades to tactical communications systems
Customs Enforcement (ICE)

To help complete these activities, DHS awarded contracts and grants to government, non-
profit, and for-profit organizations (collectively referred to as recipients). Section 1512
of the Recovery Act requires recipients to submit reports on use of funds not later than 10
days after the end of each calendar quarter. The reports include information on the status
of recovery funds; lists of projects undertaken; and project information, such as jobs


                                            1

created. Recipients submit data through www.FederalReporting.gov, the online Web
portal that collects all Recovery Act recipient reports.

Office of Management and Budget (OMB) memoranda 1 present Section 1512 reporting
guidance for federal agencies and grantees and Clause 52.204-11 of the Federal
Acquisition Regulations (FAR) contains instructions for contractors.

Recovery Board

As part of its oversight activities, the Recovery Board has been working with federal
Inspectors General to complete a multi-phased approach to assess recipient reporting.
Phase I reviews provided a snapshot of agencies’ data review processes before the start of
the first reporting period in October 2009. The phase II review assessed the data review
processes at seven agencies after the first reporting period which ended on June 30, 2009.
Phase III focused on controls and processes of agencies and recipients to ensure data
reliability and transparency. One part of Phase III reviewed the internal controls of
federal agencies to ensure that recipient data are accurate, complete, timely, and free of
significant errors or material omissions. A second part of Phase III, in which we
participated, covered recipient processes for compiling and reporting on the data elements
listed in the next section.

Data Elements Covered by Review

1. Number of Jobs. Contractors and grantees report an estimate of the number of jobs
funded by the Recovery Act for the quarter. Grantees must also include the number of
jobs funded by sub grantees (entities which receive flow-through grant funds) and
vendors. Contractors, however, are not required to report jobs ascribed to subcontracts.

2. Total Federal Amount of Recovery Act Funds Received or Invoiced. Grantees report
the total cumulative amount of Recovery Act funds received from the federal agency.
Contractors report the total cumulative amount of funds invoiced to the agency for
federal payment.

3. Total Amount of Recovery Act Expenditures. Grantees report the total cumulative
amount of Recovery Act funds received that were spent on projects or activities.
Contractors do not report this data element.

4. Project Status. Grantees and contractors report the completion status of the project or
activity funded by the Recovery Act by selecting one of four options - not started, less
than 50% completed, 50% or more completed, and fully completed.

1
 Memorandum M-09-21, Implementing Guidance for the Reports on Use of Funds Pursuant to the
American Recovery and Reinvestment Act of 2009, June 22, 2009. Memorandum M-10-08, Updated
Guidance on the American Recovery and Reinvestment Act - Data Quality, Non-Reporting Recipients, and
Reporting of Job Estimates, December 18, 2009. Memorandum M-10-14, Updated Guidance on the
American Recovery and Reinvestment Act, March 22, 2010.



                                                 2

5. Final Report. Grantees and contractors report whether the report is their final report
submission.

This report covers recipient reporting for the quarter ending December 31, 2009. For that
quarter, DHS recipients reported jobs funded by the Recovery Act of 647 2 , funds
received or invoiced of $170 million 3 , and expenditures of $123 million3.

Results of Review
The 17 recipients we reviewed used processes that provided reasonable assurance of
compliance with the applicable reporting requirements for three of the five data elements
included in our review. Furthermore, even though none of the recipients calculated the
number of jobs in full compliance with the applicable OMB and FAR guidance, the
majority of the job estimates appeared to reflect the actual job impact of the Recovery
Act funds expended. We also determined that five of the nine grantees used reasonable
methods to compute total Federal funds expended even though their methods were
inconsistent with the OMB guidance, and identified other minor reporting issues with
grantees. The results of our review of recipient reporting are summarized in the
following table.

Table:       Summary of Recovery Act Reporting Results for the Reporting Period
             Ending December 31, 2009
                                                                                  Grant and
                                    Grantees (9)          Contractors (8)          Contract
                                                                                Recipients (17)
                                                                                   Total No.
                                  No. Reporting           No. Reporting
                                                                                  Reporting
                                  Consistent with         Consistent with
                                                                                Consistent with
                                    Guidance                Guidance
                                                                                   Guidance
      Data Element                 Yes         No         Yes         No        Yes        No
Jobs                                0           9          0           8         0         17
Funds Received/Invoiced             1a         1           7b         0          8          1
Expenditures                        1c         5          N/Ad       N/Ad        1          5
Project Status                      8           1          8           0         16         1
Final Report                        8           1          8           0         16         1
a
  Of the nine grantees reviewed, we excluded seven grantees from the Funds Received/Invoiced data
  element because they reported having received/invoiced no Recovery Act funds as of 12/31/09.
b
  Of the eight contractors reviewed, we excluded one contractor from the Funds Received/Invoiced
  data element because the contractor reported having not submitted invoices for Recovery Act funds
  as of 12/31/09.
c
  Of the nine grantees reviewed, we excluded three grantees from the Expenditures data element
  because they reported having not received or expended any Recovery Act funds as of 12/31/09.
d
  Contractors were not required to report expenditures.



2
    Number reported in Recovery.gov for DHS for the period covered by audit.
3
    Amount reported in DHS data extract for March 25, 2010.


                                                     3

Recipient Jobs Estimates Not Based On Federal Guidance

OMB memorandum M-10-08 changed the method for grantees to calculate jobs created
or retained by Recovery Act funding. The updated guidance requires grantees to estimate
the number of Recovery Act jobs created or retained based on: (1) work performed by the
grantees only in the quarter being reported (not cumulative); (2) work performed by sub
grantees and vendors; and (3) a calculation that divides the total actual hours worked in
funded jobs by the number of hours representing a full work schedule for the kind of job
being estimated. The calculation converts part-time and temporary jobs into “full-time
equivalent” (FTE) jobs. The resulting FTEs are adjusted as appropriate to count only
the portion corresponding to the share of jobs funded by Recovery Act funds. The revised
guidance was issued on December 18, 2009, and was applicable for the reporting period
ended December 31, 2009. The FAR contained similar guidance for contractors except
that contractors were not required to report jobs related to subcontracts. None of the 17
recipients completely followed the guidance for computing jobs.

Examples of common errors follow:

•	 Two grantees and two contractors reported jobs they expected to create or retain in
   the future. For instance, one recipient used total project hours included in its contract
   proposal as the basis of its jobs estimate. Another recipient reported positions that it
   intended to fill during a subsequent reporting period.

•	 Four grantees and two contractors reported jobs based upon positions created or
   retained, rather than the Recovery Act funded hours worked in those positions during
   the reporting period.

•	 One grantee reported jobs based on the project tasks completed during the period.
   The recipient calculated the number of jobs using a standard number of hours by
   position required to complete the project tasks.

•	 One contractor reported jobs cumulatively.

•	 Five grantees reported total jobs related to a project even though the Recovery Act
   funded only 90 or 95% of total project costs.

Five recipients told us that, due to the nature of their projects, calculating jobs based upon
actual hours worked on Recovery Act funded activities would have been unfeasible or
unduly costly and burdensome. For example, four grantees that received Recovery Act
funds to adapt airports for the installation of explosive detection systems had ongoing
airport construction projects prior to the receipt of the Recovery Act funds. As a result,
they used the Recovery Act funds to finance contract modifications for the additional
work necessary to ready the airports for installation of the explosive detection systems.
The grantees said that the construction contracts did not contain a requirement to track
and report hours worked on the Recovery Act funded part of the projects because they
awarded the contracts before receiving Recovery Act funds.


                                              4

Consequently, the grantees developed alternate methods to estimate jobs, none of which
appeared to pose an unreasonable risk of material misreporting. For example, one
grantee estimated jobs based upon the Recovery Act project tasks completed during the
reporting period by relying on the contractors’ knowledge of the usual number of labor
hours by job type required to perform a particular task. In another instance, the grantee
reported jobs based upon the contractors’ estimate of the percentage of the total hours by
job type worked during the reporting period that were attributable to the Recovery Act
project.

We also identified errors applicable only to contractors. In four instances, contractors
included jobs pertaining to subcontracts in their quarterly estimates. Specifically, 174
(56%) of 309 reported jobs were related to subcontracts. Generally, the contractors
included subcontractor jobs because they believed the subcontractors were an integral
part of the contract deliverable. Contractors also believed that not including subcontractor
jobs diminishes the impact on jobs of the Recovery Act contracts.

In July 2010, the Civilian Agency Acquisition Council and the Defense Acquisition
Regulations Council amended the FAR to revise the clause FAR 52.204-11. The revised
clause requires a contractor to estimate the number of jobs created and retained by the
prime contractor and all first-tier subcontracts valued at $25,000 or more. The revised
clause will be used for all new solicitations and contracts issued on or after July 2, 2010,
the effective date of the revision. The new clause does not require renegotiation of
existing Recovery Act contracts or its use in modifications made to existing contracts

Grant Reported Expenditures Not Based on Federal Guidance

Four grantees inappropriately reported project expenditures of $12,094,611 as Recovery
Act funds expended. While this appeared reasonable, it was not consistent with OMB
guidance which limits the amount to be reported for expenditures to the amount of
expenditures for which Federal reimbursement has been received. OMB Memorandum
M-09-21 defines expenditures as “the amount of Recovery funds received that were used
to pay for projects or activities.” [emphasis added]

In the grantees’ opinion, the economic stimulatory effect, including job creation and
retention, occurred when they spent funds on their projects, as opposed to when they
received federal reimbursement. As one grantee noted, reporting expenditures according
to the OMB definition would have resulted in a “disconnect” between Recovery Act
project expenditures and the resulting impact on jobs retention and creation.

Minor Reporting Issues

We identified minor errors in reporting in the data elements for funds received or
invoiced, project status, and final report, as follows:

•	 One grantee overstated the Recovery Act funds received from the awarding agency.
   OMB Memorandum M-09-21 defines funds received as “the total cumulative amount



                                             5

   of Recovery Act funds received from the agency.” The recipient’s reported amount
   included project expenditures that were pending reimbursement or were grantee
   funded.

•	 One grantee reported the status of its project as “not started.” Nevertheless, the
   recipient also reported an expenditure amount and project accomplishments for the
   quarter. The recipient confirmed that the project was ongoing for the quarter ended
   December 30, 2009, and that the “not started” status was incorrect.

•	 One grantee reported that its report for the period ended December 31, 2009, was its
   “final report.” However, other data elements, such as project status, funds received
   and expended, and project accomplishments for the quarter indicated that the project
   was not complete. The recipient confirmed that the report submission for the quarter
   ended December 31, 2009, was not the final report and that the reporting of such was
   incorrect.

Since the consolidated report as published by the Recovery Board contains
recommendations to federal officials to clarify reporting instructions for federal agencies
and recipients, this report contains no additional recommendations. The information in
the report is intended to assist the department in its continued oversight of recipient
reporting.




                                             6

Appendix A
Purpose, Scope, and Methodology

The objective of this audit was to determine whether selected Recovery Act recipients’
processes for compiling and reporting selected data provided reasonable assurance of
compliance with reporting requirements contained in Section 1512 of the Recovery Act.
The review focused on five data elements - number of jobs, total Federal amount of
Recovery Act funds received or invoiced, total Federal amount of Recovery Act funds
spent, project status and final report. We examined reporting for the quarter ended
December 30, 2009.

We reviewed the processes of recipients who had reported the largest number of jobs
created or retained and other recipients located in the same vicinity. These 17 recipients
received Recovery Act awards from Transportation Security Administration, U.S.
Customs and Border Protection, Federal Emergency Management Agency, and U.S Coast
Guard.

We also reviewed applicable federal, DHS, and recipient policies and procedures,
interviewed key recipient personnel to understand and evaluate reporting processes and
related controls, reviewed available documentation supporting recipient reports, and
performed limited analytical procedures, such as logic and reasonableness checks of data
quality. We performed fieldwork at recipient locations in six states and Washington D.C.

We conducted this performance audit between April 2010 and October 2010 pursuant to
the Inspector General Act of 1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based upon our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based upon our
audit objectives.

We appreciate the cooperation by management and staff from DHS and from the
recipients in providing the information and access necessary to accomplish this review.




                                            7

Appendix B
Major Contributors to this Report

                    Roger LaRouche, Director
                    Jerome Fiely, Desk Officer
                    Shawn Cosman, Auditor




                                        8

Appendix C
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Senior Counselor to the Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      DHS ARRA Coordinator
                      DHS Component Liaison, FEMA
                      DHS Component Liaison, CBP
                      DHS Component Liaison, TSA
                      DHS Component Liaison, USCG
                      DHS Component Liaison, ICE

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                                             9

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
